WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

LAYNE AUCOIN

20-5330
v.

LIEUTENANT CUPIL, ET AL.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
111 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

El I am a member of the Bar of the Supreme Court of the United States.
El I am not

esently a member of tTi
will be fil d by a
• member.

r of this Court. Should a response be requested, the response

Signature
Date.

08/28/2020

(Type or print) Name

William David Coffey LSBA# 24056
[I] Mr.

Firm

El Mrs.

[11 Miss

Louisiana Attorney General's Office, Department of Justice

Address

1450 Poydras Street, Suite 900

City & State
Phone

❑ Ms.

New Orleans, LA

504-599-1200

Zip
Email

70112

Coffeyd@ag.louisiana.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Donna Grodner, Counsel for plaintiff and Phyllis Glazer, Trial Counsel fei6

SEP 1 0 2020
0i FICE OF THE CLERK
SUPREME COURT, U.S.

